      DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General



             Survey of the Information Analysis
          And Infrastructure Protection Directorate




 Notice: The Department of Homeland Security, Office of Counsel to the Inspector General,
 has reviewed this report and excised information according to the Freedom of Information Act,
 5 U.S.C. Section 552, as amended.




Office of Inspections, Evaluations, & Special Reviews

 OIG-04-13                                           February 2004
                                               Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG periodically as part of its oversight responsibility with respect to DHS to
identify and prevent fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the program,
operation, or function under review. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein, if any, have been developed on the basis of the best knowledge
available to the OIG, and have been discussed in draft with those responsible for implementation.
It is my hope that this report will result in more effective, efficient, and/or economical operations.
I express my appreciation to all of those who contributed to the preparation of this report.




Clark Kent Ervin
Inspector General
                                                                                                                            Contents

Introduction.......................................................................................................................................... 1

     Results in Brief .............................................................................................................................. 1

     Background .................................................................................................................................... 2

     Purpose, Scope and Methodology................................................................................................... 3

     Programs of the Information Analysis and Infrastructure Protection Directorate (by offices
     and divisions) ................................................................................................................................. 4

           The Budgetary Programs of the IAIP....................................................................................... 4

           Organizational Chart of IAIP................................................................................................... 5

           Administration and Outreach – Office of the Under Secretary ............................................... 7

           Homeland Security Operations Center .................................................................................. 10

           Intelligence and Warning - Office of Information Analysis.................................................. 12

           Protecting Critical Infrastructure and Key Assets – Office of Infrastructure Protection ....... 16

     Issues for Inspections/Evaluations............................................................................................... 21

           Hiring Personnel to Work in a Classified Environment Takes a Substantial Amount
           of Time .................................................................................................................................. 21

           The Ability of IAIP to Exchange Threat Information Electronically with Partners is
           Necessary to Fulfill its Mission ............................................................................................ 22

           Maintaining Close Partnerships that Facilitate Unobstructed Information Flows is
           Crucial to the Success of IAIP .............................................................................................. 23

           The Extent of IAIP’s Involvement With the Homeland Security Advisory System is
           Not Clear ............................................................................................................................... 24

           IAIP Needs to Develop a Prioritized List of Critical Infrastructure and Assets ................... 24


                                         Survey of IAIP Directorate - OIG-04-13                                                                     Page i
Contents

Appendices

    Appendix A:   Summary of IAIP Statutory Functions............................................................ 26
    Appendix B:   Lead Agencies and Critical Infrastructure Sectors and Key Assets................ 27
    Appendix C:   IAIP Response to OIG .................................................................................... 28
    Appendix D:   Major Contributors to this Report................................................................... 29
    Appendix E:   Report Distribution ......................................................................................... 30


Abbreviations

    CAEO          Competitive Analysis and Evaluation Office
    CIA           Central Intelligence Agency
    COS           Chief of Staff
    DHS           Department of Homeland Security
    DoD           Department of Defense
    FBI           Federal Bureau of Investigation
    FTE           Full Time Equivalent
    FY            Fiscal Year
    HSA           Homeland Security Act
    HQBO          Headquarters Business Office
    HSAS          Homeland Security Advisory System
    HSC           Homeland Security Council
    HSOC          Homeland Security Operations Center
    HV/HPS        High Value/High Probability of Success
    IA            Office of Information Analysis
    IAIP          Information Analysis and Infrastructure Protection Directorate
    ICD           Infrastructure Coordination Division
    IMRD          Information Management and Requirements Division
    IP            Office of Infrastructure Protection
    IT            Information Technology
    IWD           Information and Warnings Division
    NCS           National Communication System
    NCSD          National Cyber Security Division
    NSTAC         National Security Telecommunication Advisory Committee
    NS/EP         National Security Emergency Preparedness
    OIG           Office of Inspector General



Page ii                                       Survey of IAIP Directorate - OIG-04-13
                                                    Contents


PPO    Planning and Partnerships Office
PSD    Protective Security Division
RAD    Risk Assessment Division
TTIC   Terrorist Threat Integration Center




           Survey of IAIP Directorate - OIG-04-13        Page iii
OIG
Department of Homeland Security
Office of Inspector General


    Introduction
                       The Information Analysis and Infrastructure Protection (IAIP) directorate was
                       created to support a key strategic mission of the Department of Homeland
                       Security (DHS). IAIP analyzes and integrates terrorist threat information,
                       mapping those threats against both physical and cyber vulnerabilities to critical
                       infrastructure and key assets, and implementing actions that protect the lives of
                       Americans, ensures the delivery of essential government services, and protects
                       infrastructure assets owned by US industry. IAIP is unique in that no other
                       federal organization has the statutory mandate to carry out these responsibilities
                       under one organizational framework.

                       The Office of Inspector General (OIG) conducted this survey to learn more about
                       the department’s plans for IAIP and to prepare us for more detailed future work
                       as part of our general oversight responsibility for DHS and its component parts.
                       Issues of particular importance to us were:

                       •   The methodology for transferring and integrating the functions and agencies
                           responsible for protecting critical infrastructure into IAIP;
                       •   How IAIP offices and divisions are working (or intend to work) with non-
                           DHS entities to protect critical infrastructure; and
                       •   IAIP’s ability to communicate with entities within DHS and other federal,
                           state, local, and private sector partners.

                       Additionally, we endeavored to determine the obstacles IAIP faces in “standing-
                       up” the organization. We reviewed and analyzed documents pertaining to IAIP
                       and interviewed IAIP officials from May 2003 through July 2003.

    Results in Brief
                       Since its establishment approximately nine months ago, IAIP has faced the
                       daunting task of becoming fully operational as a new directorate, while
                       maintaining the workload it acquired from legacy agencies. In addition to
                       maintaining a full workload, IAIP has also encountered several other complicating



                            Survey of IAIP Directorate - OIG-04-13                                   Page 1
                           factors. For example, during the past nine months, IAIP has been hampered by
                           turnover of key management positions. Also, IAIP has dealt with severe space
                           problems, as many of its personnel are required to work from separate locations
                           throughout the Washington, D.C. metropolitan area, or to work with one or more
                           other people at one workstation at the department’s headquarters.

                           In addition to these difficulties, the OIG has identified several other issues that
                           may warrant future inspections. During interviews, executives within IAIP
                           maintained that the inability to hire personnel who have, or can quickly obtain,
                           the necessary security clearances to work in a classified environment was a major
                           obstacle to IAIP becoming fully operational. Another obstacle often cited by IAIP
                           executives was its inability to connect to secure systems and databases residing
                           at other agencies. Future inspections geared toward making recommendations
                           on how to shorten the clearance process for new hires and assessing the
                           progress made in systems connectivity would help IAIP advance in its mission.
                           Though not identified as a current issue by IAIP executives, much of the future
                           success of IAIP depends on its ability to maintain close partnerships with other
                           federal departments and agencies that have homeland security responsibilities
                           for infrastructure sectors not covered by DHS. Close partnerships with the
                           intelligence and law enforcement communities are also vital to the success of
                           IAIP. A future inspection that measures how well IAIP maintains its partnerships
                           with key outside agencies would help to gauge the effectiveness of IAIP in
                           supporting the overall mission of DHS. Finally, IAIP plays an important role
                           in analyzing threat information in support of the Homeland Security Advisory
                           System (HSAS).1 However, it is not clear how intelligence will be deemed
                           actionable, or what the intelligence requirements are for the different threat
                           conditions. An inspection that will clarify these matters may promote a more
                           effective, efficient, and economical process for changing the threat condition.

Background
                           In response to the recognized need for a coordinated, national approach2 to protect
                           the homeland against potential terrorist attacks, Congress enacted the Homeland

1
  The Homeland Security Advisory System provides a means to disseminate information regarding the risk of terrorist attacks
against federal, state, local, and private sector authorities and the American people by characterizing appropriate levels of
vigilance, preparedness, and readiness in a series of graduated threat conditions.
2
  Before DHS was created in November 2002, protecting the homeland was primarily a federal responsibility and was mainly
coordinated through the military, the intelligence agencies, the Department of Justice, and the Department of State. Since the
September 11, 2001 terrorist attack, homeland security has become a national rather than a federal responsibility because the
federal government alone cannot protect the entire country.


Page 2                                            Survey of IAIP Directorate - OIG-04-13
              Security Act (HSA) of 2002, resulting in the creation of DHS. The primary
              strategic objectives of the DHS are:

              •   To prevent terrorist attacks within the homeland;
              •   To reduce the vulnerability of the homeland to terrorism; and
              •   To minimize the damage and assist in the recovery from terrorist acts that
                  occur within the homeland.

              IAIP was vested with responsibility to analyze and integrate terrorist threat
              information, map threats against both physical and cyber vulnerabilities to critical
              infrastructure and key assets, and implement actions that protect the lives of
              Americans, ensure the delivery of essential government services, and protect
              infrastructure assets owned by U.S. industry. IAIP carries out its mission through
              the Administrative and Outreach, Intelligence and Warning, and the Protecting
              Critical Infrastructure and Key Assets programs, as well as the Homeland Security
              Operations Center.

Purpose, Scope, and Methodology
              The objective of this survey was twofold. First, we sought to gain a basic
              understanding of IAIP, including learning the missions of the offices and divisions
              within IAIP, defining the operational relationships between those offices and
              divisions, diagramming internal and external terrorist threat information flow,
              and identifying the obstacles impeding IAIP’s ability to become fully operational.
              Second, this survey provided an opportunity to identify issues suited for future
              detailed inspections or audits. With regard to programs or operations meriting
              special or focused attention, we reviewed and analyzed the following:

              •   Documentation pertinent to DHS and IAIP including program guidance,
                  policy memorandums, briefing packages, meeting notes, Internet websites,
                  and various news articles;
              •   Homeland Security Act of 2002, Pub. L. No. 107-296, 116 Stat. 2135 (Nov.
                  25, 2002);
              •   Patriot Act of 2001, Pub. L. 107-56, 115 Stat. 272 (Oct. 26, 2001);
              •   Congressional testimony, namely the joint hearing with both the Judiciary
                  Committee and the Select Committee on Homeland Security, on “The
                  Terrorist Threat Integration Center (TTIC) and its Relationship with the
                  Departments of Justice and Homeland Security,” July 22, 2003;
              •   Congressional testimony, namely the Subcommittee on Intelligence and
                  Counter-Terrorism to the House Select Committee on Homeland Security,


                   Survey of IAIP Directorate - OIG-04-13                                  Page 3
                    “Improving the Department of Homeland Security’s Information Sharing
                    Capabilities,” July 24, 2003; and
                •   IAIP organizational chart as of August 11, 2003.

                We interviewed key IAIP officials, including the Under Secretary, the Assistant
                Secretary for Information Analysis, the Assistant Secretary for Infrastructure
                Protection, and the Director of the Homeland Security Operations Center.
                In addition, we interviewed the Chief of Staff and the office directors for
                the Risk Assessment Division, the Information and Warnings Division, the
                Infrastructure Coordination Division, the Protective Security Division, the
                National Communications System, the Planning and Partnership Office, and the
                Competitive Analysis and Evaluation Office.

                The bulk of the interviews conducted during the interview phase of this survey
                were conducted from May 2003 to July 2003 under the authority of the Inspector
                General Act of 1978, as amended. Follow-up questions regarding the National
                Asset List were answered on December 16, 2003.

Programs of the Information Analysis and Infrastructure Protection
Directorate (by offices and divisions)
                Guided by the requirements of the HSA, IAIP combines the capability to: (1)
                identify and assess current and future threats to the nation’s critical infrastructure;
                (2) communicate identified threats and issue warnings to relevant federal, state,
                local, private, and international partners; and (3) implement strategies to protect
                the nation’s critical infrastructure. No other government agency has the statutory
                mandate to combine these capabilities under one organizational framework.
                Consequently, many refer to IAIP as the “central information nerve center” of the
                overall effort to protect the homeland and, thus, of DHS.

         The Budgetary Programs of IAIP
                IAIP administers the (1) Administrative and Outreach Program; (2) Intelligence
                and Warning Program; (3) Homeland Security Operations Center; and (4)
                Protecting Critical Infrastructure and Key Assets Program. Baseline personnel
                and funding statistics as provided by IAIP are reported in the following table.




Page 4                               Survey of IAIP Directorate - OIG-04-13
                                     Table 1 – Projected, authorized personnel and funding statistics for FY 2004

                                                                                                                                                                                    Budget
                                       Programs/Operations Center                                                                                     FTEs
                                                                                                                                                                                    ($000)
                                       Administrative and Outreach Program
                                       Homeland Security Operations Center
                                       Intelligence and Warning Program
                                       Protecting Critical Infrastructure and Key Assets Program
                                       Total                                                                                                            692                          $1,032,000


                                     These three programs and one operations center can be traced generally to specific
                                     offices and divisions within IAIP. The Administrative and Outreach Program
                                     is roughly equivalent to the Office of the Under Secretary and the personnel
                                     assigned to support the Under Secretary and administrative and outreach functions
                                     of IAIP. The Intelligence and Warning Program is roughly equivalent to the
                                     Office of Information Analysis (IA), and the Protecting Critical Infrastructure
                                     and Key Assets Program is roughly equivalent to the Office of Infrastructure
                                     Protection (IP).

               Organizational Chart of IAIP
                                     IAIP’s organizational chart supplied, as of August 11, 2003, is presented below.

                                     Chart 1 – The Information Analysis and Infrastructure Protection
                                               Directorate
                                                                                         Under Secretary



                                                              Chief of Staff                                         Planning and Partnerships
                                                       (included in the US/IAIP FTEs)


                                                      Headquarters Business Office

                                                                                                                                                 Administration and Outreach Program
                                                                                                                                                 Intelligence and Warning Program
                                               Competitive Analysis and Evaluation Office
                                                                                                                                                 Homeland Security Operations Center
                                                                                                                                                 Protecting Critical Infrastructure and Key Assets Program



                      Assistant Secretary for Information Analysis                                                             Assistant Secretary for Infrastructure Protection
                                          (ASIA)                               Homeland Security Operations Center                                    (ASIP)
                                                                                                TBD




Risk Assessment Division            Information & Warnings Division                Infrastructure Coordination Division            Protective Security Division
                                                                                                                                                                          National Cyber Security Division
                                                                                                                                                                                           TBD




                                                                                     National Communications System




                                               Survey of IAIP Directorate - OIG-04-13                                                                                                                        Page 5
         On March 1, 2003, when certain offices and functions of 22 agencies merged to
         create DHS, IAIP inherited elements from five legacy agencies, including:

         •   National Infrastructure Protection Center (Federal Bureau of Investigation)
         •   Critical Infrastructure Assurance Office (Department of Commerce)
         •   Federal Computer Incident Response Center (General Services Administration)
         •   National Communications System (Department of Defense)
         •   Office of Energy Assurance (Department of Energy)

         Merging these five legacy elements into a fully functioning directorate is
         an ongoing process. Since merging, IAIP has made several changes to its
         organizational structure. One of the more significant changes involved the
         placement of the Homeland Security Operations Center (HSOC) within IAIP.
         Previously, the HSOC was assigned to the Office of the Secretary and was
         budgeted under the Management and Administration Program of DHS. Another
         significant change was the establishment of a National Cyber Security Division
         (NCSD). Both of these changes are reflected in the current organizational
         chart. However, as IAIP streamlines processes and refines communication
         among internal offices, divisions and external partners, the OIG understands that
         additional changes in the current organizational structure may be necessary. In
         fact, the OIG has learned that additional changes in the organizational structure
         are under consideration. These changes are intended to enhance the ability of
         IAIP to meet the 19 responsibilities assigned to it by the HSA. Such changes
         could involve converting the Information and Warnings Division (IWD) within
         the IA into the Information Management and Requirements Division (IMRD),
         moving the Planning and Partnerships Office (PPO) from the Office of the Under
         Secretary to the IP, and making the National Communications System (NCS) into
         a peer of the Infrastructure Coordination Division (ICD) rather than keeping it as
         a subordinate.

         Under the current organizational structure, IA is responsible primarily for
         identifying and assessing current and future threats to the nation’s critical
         infrastructures. The HSOC is responsible for communicating identified threats
         and issuing warnings to relevant federal, state, local, and private sector partners.
         The IP is responsible for implementing strategies to protect the nation’s critical
         infrastructure. Of the 19 responsibilities assigned to IAIP by the HSA, 16 are to
         be carried out by IA and three are assigned to IP, with close collaboration between
         IA and IP on seven of these responsibilities (Appendix A.). One of the goals of
         executive management is for the IA and IP to function seamlessly regarding these
         assignments.



Page 6                        Survey of IAIP Directorate - OIG-04-13
                               During non-crisis operations, information arrives through IAIP-watch, resident
                               intelligence agency desks, resident law enforcement agency desks, and resident
                               response agency desks within the HSOC, as well as through contacts among the
                               13 infrastructure sectors (Appendix B). Once information is processed within
                               IAIP, warning and mitigation strategies are then communicated to relevant
                               partners through the HSOC or through line-operational divisions (e.g., the
                               Infrastructure Coordination Division) after coordination with HSOC to points
                               of contacts among the 13 infrastructure sectors – an environment where IAIP
                               listens with many ears and speaks with many mouths. During near-crisis or
                               crisis operations, information flows through the HSOC and, in general, line-
                               operational divisions will be discouraged from maintaining separate channels of
                               communication with the contacts developed through the course of regular non-
                               crisis operations. Line-operational divisions will still be able to communicate
                               with their contacts in the sectors; however, they will be encouraged to do so
                               through the HSOC so the message will be more controlled – an environment
                               where IAIP listens with one ear and speaks with one mouth.

      Administration and Outreach – Office of the Under Secretary
                               The Office of the Under Secretary is comprised of: (1) the Under Secretary;
                               (2) the Chief of Staff; (3) Headquarters Business Office; (4) the Competitive
                               Analysis and Evaluation Office; and (5) the Planning and Partnership Office. The
                               following chart highlights the position of the Office of the Under Secretary within
                               IAIP:

                                                           Chart 2 – The Office of the Under Secretary

                                                                                                 Under Secretary


                                                                        Chief of Staff                             Planning and Partnerships Office

                                                                Headquarters Business Office

                                                         Competitive Analysis and Evaluation Office

                       Under Secretary


                COS                      PPO

                HBO

                CAEO


      ASIA                 HSOC                  ASIP



RAD      I&WD               ICD                PSD      NCSD


                            NCS




                                         Survey of IAIP Directorate - OIG-04-13                                                                       Page 7
         Ø Chief of Staff (COS)
           The primary responsibility of the COS is to administer and manage IAIP’s
           staff. Embodied within this responsibility is the coordination of the
           directorate’s offices and line-operational divisions, assuring that they are
           integrated and operating in full collaboration with the HSOC. However,
           several issues appear to be inhibiting this integration process. One of the
           more obvious involves the 499 Full Time Equivalents (FTEs) that IAIP
           inherited from legacy agencies. Of these 499 FTEs, only 174 were filled
           by personnel who actually left their legacy agency and made the transition
           into IAIP. The other 325 have remained vacant for the first six months of
           IAIP’s existence. The element that contributed the most to this personnel
           shortage was the National Infrastructure Protection Center (NIPC). When
           NPIC transferred into IAIP, personnel who actually left the FBI filled only
           18 of the 307 FTEs targeted for transfer. The other 289 were vacant. Other
           complicating issues include turnover of key leadership positions, slower than
           anticipated consolidation of administrative functions, and logistical problems
           caused by IAIP’s multiple office locations spread throughout the Washington
           metropolitan area.

         Ø Headquarters Business Office (HQBO)
           The HQBO was established to provide IAIP components with the necessary
           planning, financial, facilities, and acquisition support required to satisfy
           their mission objectives and to ensure compliance with all federal and DHS
           regulatory and policy requirements. The Director of Business Operations is
           responsible for administering, managing, and overseeing all activities in the
           HQBO; coordinating business operations functions and activities across the
           IAIP; and reporting progress to its primary customers, the Under Secretary,
           the COS, and the assistant secretaries for IA and IP.

            One of the high priority challenges facing the HQBO, as well as the COS,
            is IAIP’s immediate need to fill its ranks with sufficiently trained and
            appropriately cleared staff to meet the needs of IAIP senior management and
            all IAIP divisions. Further, it is anticipated that within next five years, the
            IAIP will experience tremendous growth in terms of acquiring additional
            highly skilled staff as well as services, technologies, and tools that will enable
            the IAIP to refine its mission. The HQBO and the COS face the challenge
            of identifying issues and factors that influence the size and shape of IAIP’s
            budget, staffing, and technology.




Page 8                      Survey of IAIP Directorate - OIG-04-13
Ø Competitive Analysis and Evaluation Office (CAEO)
  The mission of the CAEO is to reduce the risk and consequences of terrorist
  attacks on the homeland by helping to ensure that IAIP products and services
  are tested, and of the highest quality and value.

   The CAEO helps DHS anticipate terrorist actions -- and thus improve DHS
   threat warnings, collection requirements, and mitigation measures - - by
   organizing DHS “strategic red cell” sessions. During these sessions, the
   CAEO brings in outside experts from private industry, the military, the
   intelligence and law enforcement communities, and elsewhere to provide an
   independent assessment of where, how, and when terrorist may attempt to
   strike.

   The CAEO plans to test and validate risk assessments on infrastructure
   through physical and cyber “red teaming.” By emulating terrorist mindsets,
   doctrines, and tactics, CAEO red teams will provide its customers, mainly IP,
   with a snapshot of critical infrastructure and cyber security vulnerabilities,
   categorize them according to risk, and identify safeguards to mitigate the
   vulnerabilities.

   In addition, the CAEO:

   •   Develops, coordinates, and conducts interagency and IAIP exercises to
       test and improve procedures for managing terrorist threats and attacks,
       as well as organizes conferences and seminars.
   •   Conducts impartial in-house and outside reviews of IAIP products,
       services, and processes -- including measuring customer feedback on
       these products -- and works with IAIP components to develop quality
       standards.

Ø Planning and Partnership Office (PPO)
  At the core of IAIP’s mission is the need to build and maintain strong,
  strategic relationships with critical infrastructure sectors and key asset
  industries. This task is assigned to IAIP’s PPO. The PPO is responsible
  for developing and supporting the development of partnerships for IAIP
  divisions with state and local government, private industry, and international
  communities for national planning, outreach and awareness, information
  sharing, and protective actions. Specifically, the PPO:




    Survey of IAIP Directorate - OIG-04-13                                  Page 9
                    •   Develops, coordinates and supports partnerships for IAIP divisions
                        with international communities, state and local government and other
                        federal agencies, public sector, and academic institutions for outreach
                        and awareness, information sharing and protective action programs;
                    •   Develops, coordinates, and implements national outreach and
                        awareness programs for IAIP divisions;
                    •   Manages and provides executive agent support to advisory councils
                        and cross-sector partnerships; and,
                    •   Develops, maintains and reports progress against national integrated
                        strategies and implementation plans for critical infrastructure
                        protection.

                    Successfully implementing productive partnerships requires expertise in
                    information analysis and infrastructure protection processes and policies, the
                    interest of potential partners, and skills in creating mutual benefits among an
                    array of stakeholders. Before the PPO can become fully functional, offices
                    and divisions within IAIP must understand the benefits of their interaction
                    with each other as well as external participants. The PPO must also develop
                    standardized protocols and processes as they apply to entities inside and
                    outside IAIP.

          Homeland Security Operations Center
                 The Homeland Security Operations Center (HSOC) is the nation’s single point
                 for tracking federal, state, local and private sector terrorist threat information
                 to secure the homeland. It operates 24 hours per day, seven days a week. It
                 maintains and shares domestic situational awareness; coordinates security
                 operations; detects, prevents, and deters terrorist incidents; and facilitates the
                 response to all critical threats. During a crisis,




Page 10                              Survey of IAIP Directorate - OIG-04-13
                          The following chart highlights the HSOC’s position within IAIP:

                           Chart 3 – The Homeland Security Operations Center

                           Homeland Security Operations Center




                                                                                                     Under Secretary


                                                                                              COS                      PPO

                                                                                              HBO

                                                                                              CAEO


                                                                                    ASIA                 HSOC                  ASIP



                                                                             RAD       I&WD               ICD                PSD      NCSD


                                                                                                          NCS




                          Under the operational control of IAIP, the HSOC houses staff from various
                          elements of the intelligence and law enforcement communities such as the CIA,
                          National Security Agency, Secret Service, and FBI, as well as elements from
                          organizations such as the Department of State, Department of Energy and the
                          National Emergency Management Association.3 In addition, an IAIP cell or
                          “IAIP-watch” is located in the HSOC. IAIP-watch serves as a channel for the
                          flow of threat information to and from the divisions within IAIP.




3
  The National Emergency Management Association is a professional organization for state emergency management directors.
Its mission is to provide leadership and expertise in emergency management, serve as an information and assistance resource,
and to advocate continuous improvement in emergency management procedures.


                                Survey of IAIP Directorate - OIG-04-13                                                                   Page 11
            Intelligence and Warning – Office of Information Analysis
                            The Office of Information Analysis (IA) is comprised of two divisions:the Risk
                            Assessment Division and the Information and Warnings Division. The primary
                            mission of IA is to provide a full range of intelligence support to components
                            within DHS, as well as relevant partners outside of DHS. IA provides this
                            support by serving two roles: first, as an information “fusion center,” and,
                            second, as an information “dissemination manager.” As an information fusion
                            center, IA gathers and integrates threat information from the intelligence and
                            law enforcement communities, as well as from other components within DHS.
                            Once the information has been gathered and integrated, it is then analyzed and
                            processed into a usable format for distribution. As an information dissemination
                            manager, IA ensures that threat information is shared appropriately by issuing
                            threat advisories, bulletins, and warnings to relevant partners both internal
                            and external to DHS. Finally, IA supports the administration of the HSAS, by
                            providing independent analysis of threat information in support of decisions to
                            raise or lower the national threat condition.

                            The following chart highlights IA’s position within IAIP:

                            Chart 4 – The Office of Information and Analysis

                           Assistant Secretary for Information Analysis




      Risk Assessment Division           Information & Warnings Division
                                                                                                          Under Secretary


                                                                                                   COS                      PPO

                                                                                                   HBO

                                                                                                   CAEO


                                                                                         ASIA                 HSOC                  ASIP



                                                                                   RAD      I&WD               ICD                PSD      NCSD


                                                                                                               NCS




                            Ø Risk Assessment Division (RAD)
                              RAD is charged with becoming the most authoritative source in the federal
                              government for assessing the overall threat that terrorists pose to homeland


Page 12                                                   Survey of IAIP Directorate - OIG-04-13
                               security. It is also charged with mapping these threats against vulnerabilities
                               and providing actionable advisories to relevant partners both internal and
                               external to DHS. The RAD is considered to be an intelligence gatherer, rather
                               than an intelligence collector. The difference is the RAD accumulates and
                               analyzes information passed to it by sources whose mission is to seek out raw
                               intelligence.4 The RAD does not participate in activities such as recruiting
                               informants or intercepting communications.

                               The RAD accomplishes its core intelligence mission by integrating and
                               analyzing threat information primarily from the intelligence and law
                               enforcement communities and DHS operational and intelligence components.
                               The RAD is also authorized to establish a two-way exchange of information
                               with its state, local, and private sector partners.




                                                                        5




                                                                                                The HSOC
                               is the lead operations center within DHS that is responsible for monitoring
                               and conducting a first level assessment of incoming threat information and
                               any appropriate response. The HSOC is staffed with representatives from
                               the intelligence and law enforcement communities, Department of Defense
                               (DoD), and various civilian agencies.


                               The Terrorist Threat Integration Center (TTIC), a joint venture among the
                               Central Intelligence Agency (CIA), the Federal Bureau of Investigation
                               (FBI), the DoD, Department of State, and DHS, serves as another important

4
  Raw intelligence is a colloquial term meaning collected information that has not yet been converted into finished
intelligence.




                                 Survey of IAIP Directorate - OIG-04-13                                               Page 13
                               source of information for the RAD. In contrast to the HSOC, the director
                               of TTIC does not report to the IAIP Under Secretary but to the Director of
                               Central Intelligence as the head of the entire U.S. intelligence community.
                               The TTIC’s mission is to integrate and analyze terrorist-related information
                               to form the most comprehensive threat picture possible, whether it pertains
                               to threats overseas or to the homeland. In many respects, the missions of the
                               TTIC and the RAD overlap. However, the TTIC’s mission is more specific
                               than the analytic mission performed within DHS by the RAD in that TTIC
                               primarily focuses on threats developing overseas.6

                               By contrast, the RAD has both a more focused and overarching mission in
                               defending the homeland than TTIC. The RAD, as a division of IA, has the
                               statutory mandate to analyze all incoming threats to homeland security and
                               then to assess their credibility



                                                    Another important difference is that the RAD has the
                               mandate to communicate these assessments in a timely manner to state, local,
                               and private sector partners. The RAD does this through its close relationships
                               with the HSOC, IP, and the state and local office of DHS. The importance
                               and uniqueness of the RAD’s relationships with its counterpart divisions
                               within the IP cannot be overstressed. The TTIC does not have the mandate
                               to communicate or interact with state, local, and private sector partners, nor
                               does it have a direct relationship with divisions within the IP that implement
                               protective measures.

                               The TTIC is reported to be a willing partner in the exchange of threat
                               information.7 However, the OIG was told during senior executive interviews
                               that DHS must weigh in more heavily with TTIC, particularly in its corporate
                               ownership of analytic products produced for the President, Secretary
                               of Homeland Security, and other senior officials. According to these
                               interviews, the intelligence product coming out of the TTIC would benefit

6
  In a letter to Senator Joseph I. Lieberman, dated June 17, 2003, Secretary Ridge, attempting to clarify the difference
between TTIC and the analytical work being performed within DHS, wrote, “Other agencies have specific analytic functions
that relate to the war on terrorism performed to support their respective and specialized mission. …Information pertaining to
threats overseas [primarily collected by the CIA and analyzed by TTIC] is an important part of the overall analytic mosaic
supporting the global war on terrorism.”
7
  On July 22, 2003, at a joint oversight hearing with the Committee on the Judiciary and Select Committee on Homeland
Security, Acting Assistant Secretary for IA confirmed that TTIC has provided IA all the threat information that he has
requested since he assumed that position.


Page 14                                           Survey of IAIP Directorate - OIG-04-13
                                  from the expertise and unique information access which RAD analysts have.
                                  Furthermore, DHS and the TTIC should share staffing strategies to ensure that
                                  they build compatible skill sets and missions rather than compete for the same
                                  personnel resources and missions.
                                                                                                                   8




                             Ø Information and Warnings Division (IWD)
                               Initially, the IWD was assigned two critical responsibilities. One of these
                               responsibilities was managing the entire internal and external information
                               requirements process of IAIP. As part of this process, the IWD “pushes”
                               information to relevant internal and external partners by coordinating the
                               IAIP-watch within the HSOC and disseminating open-source9 warnings to
                               state, local, and private sector partners -- functioning much like an information
                               traffic cop. The IWD “pulls” information from relevant internal and external
                               partners by developing information sharing and intelligence requirements
                               designed to extract specific data that is necessary to obtain a more complete
                               and comprehensive threat picture. The IWD works closely with the RAD
                               and counterpart divisions within the IP to determine information sharing and
                               intelligence requirements.




9
    Information that is publicly available through such media as newspapers, television, and the Internet.


                                   Survey of IAIP Directorate - OIG-04-13                                    Page 15
                                The IWD also is responsible for administering the HSAS. Once the Secretary,
                                in consultation with members of the Homeland Security Council (HSC),
                                decides to raise or lower the national threat condition, the IWD is charged
                                with coordinating the actual notification of relevant partners about the change
                                in threat condition. The IWD fulfills this role by maintaining a call list of
                                contacts among key media outlets and state, local, and private sector officials.
                                The IWD works closely with the HSOC throughout the notification process.
                                In addition to administering the HSAS, the IWD is expected to produce
                                information bulletins and warnings, coordinate the Secretary’s morning
                                summary, and have input in the overnight development briefing and the
                                President and Secretary’s monthly report.10

                                The OIG has been told that the IWD may be disbanded in favor of a division
                                that would focus almost exclusively on IAIP’s information requirements.
                                The new division most likely will be called the “Information Management
                                and Requirements Division” (IMRD) and will transfer old IWD elements
                                responsible for watch and warning functions to the HSOC. Now that the
                                HSOC has been moved into IAIP consolidating all watch and warning
                                functions in the HSOC would eliminate the need to maintain two different
                                entities within IAIP with the same functions. The future success of the
                                IMRD will depend on how well organizations within the intelligence and
                                law enforcement communities respond to the information requirements it
                                sets. IAIP officials told the OIG that the IMRD’s utility would be strongly
                                influenced by the responsiveness of agencies such as the FBI and the CIA
                                when tasked by the IMRD to collect certain intelligence or conduct specific
                                investigations.

              Protecting Critical Infrastructure and Key Assets – Office of
              Infrastructure Protection
                            The mission of the IP is to implement protective measures to reduce
                            vulnerabilities in the nation’s critical infrastructure.11 According to the “National
                            Strategy for the Physical Protection of Critical Infrastructures,” dated February


10
   The President or other officials in the White House, as well as the Secretary, receive a report that outlines trends in
suspicious incidents. Initially, this report was distributed on a weekly basis and then eventually on a bi-weekly basis.
Currently, it is distributed on a monthly basis.
11
   The Patriot Act defines critical infrastructure as “those systems and assets, whether physical or virtual [cyber], so vital to
the United States that the[ir] incapacity or destruction... would have a debilitating impact on the security, national economic
security, national public health or safety, or any combination of those matters.”


Page 16                                             Survey of IAIP Directorate - OIG-04-13
2003, critical infrastructure can be categorized into 13 infrastructure sectors and
five key assets. There are eight federal lead departments and agencies, including
DHS, which have a role in coordinating protection activities and cultivating
long-term collaborative relationships with counterparts from each of the 13
infrastructure sectors and five key assets (Appendix B). However, as authorized
in the HSA, only DHS has the overarching responsibility to be the primary liaison
and facilitator for cooperation among all federal departments and agencies, as
well as state, local and private sector partners.

As the primary liaison and facilitator within DHS during non-crisis operations,
the IP takes a broad approach to protecting the nation’s critical infrastructure by
working closely with: (1) the IA and other organizations within DHS; (2) federal
lead departments and agencies responsible for protecting infrastructure sectors
and key assets that do not fall under the immediate control of DHS; (3) state,
local, and private entities; and (4) international entities to reduce infrastructure
vulnerabilities and deny the use of the infrastructure as a weapon to attack
Americans. Within the context of a national approach, the IP is increasing the
nation’s capability to secure critical infrastructure and key assets, as well as
high profile events,


                                 Second, based on assessed vulnerabilities, the
IP will provide training and plans for protective measures to assist owners and
operators in securing the critical infrastructure and key assets within their control.
The IP’s goal is to mitigate quickly vulnerabilities and risks, while simultaneously
helping state, local, and private sector partners develop the capability to mitigate
vulnerabilities and risk themselves. By building these capabilities into national
partners, the IP intends to reduce the nation’s vulnerability to terrorist attacks
through a sector-wide approach.




     Survey of IAIP Directorate - OIG-04-13                                   Page 17
                                                                                                                                                               Appendix VI
                                                                                                                                                          Report Distribution



                               The following chart highlights IP’s position within IAIP:

                                                        Chart 5 – The Office of Infrastructure Protection

                                             Assistant Secretary for Infrastructure Protection




      Infrastructure Coordination Division      Protective Security Division            National Cyber Security Division




          National Communications System                                                                                 Under Secretary


                                                                                                                  COS                      PPO

                                                                                                                  HBO

                                                                                                                  CAEO


                                                                                                        ASIA                 HSOC                  ASIP



                                                                                                 RAD       I&WD               ICD                PSD         NCSD


                                                                                                                              NCS




                               Ø Infrastructure Coordination Division (ICD)
                                 ICD provides core expertise in all the nation’s infrastructure sectors and key
                                 assets; monitors the operational status of those infrastructure sectors and key
                                 assets; supports the two-way sharing of critical infrastructure information
                                 between DHS and other federal, state, local, and private sector partners; and
                                 supports infrastructure incident/event response, mitigation, and recovery.
                                 Additionally, the ICD is charged with protecting proprietary and business
                                 sensitive data, implementing and executing the Critical Infrastructure
                                 Information program12, and executing National Security Emergency
                                 Preparedness (NS/EP) programs.

                                     To accomplish its mission and functions, the ICD works closely with
                                     the RAD, Protective Security Division (PSD), and eventually with the
                                     National Computer Security Division (NCSD) to provide analyses across
                                     all infrastructure sectors and key assets. After assessing current trends in
                                     terrorist threats to the nation’s critical infrastructure, the ICD determines the
                                     requirements for protective measures and then actively pursues partnerships



12
  Based on the authority of the HSA, the Critical Infrastructure Information program provides for tracking receipt, validation,
protection against unauthorized disclosure, and destruction of infrastructure information.


Page 18                                                  Survey of IAIP Directorate - OIG-04-13
                              with other government and private sector entities to safeguard


                         Ø National Communications System (NCS)
                           NCS is the lead IAIP element for developing and maintaining
                           collaborative relationships to support the critical infrastructure sector on
                           communications. To do this, the NCS: (1) monitors the vulnerabilities
                           of the telecommunications industry; and (2) coordinates national security
                           and emergency preparedness communications for the federal government
                           during non-terrorism related emergencies, terrorist attacks, and recovery and
                           reconstitution operations. Organizationally, the NCS reports to the ICD. The
                           NCS is the only organization that merged into IAIP without losing its legacy
                           name or mission assignment.

                              The NCS combines the assets of 23 federal departments and agencies to
                              address the full range of national security and telecommunications emergency
                              preparedness issues. The NCS applies its interagency planning efforts in
                              developing NS/EP special telecommunications services to support IAIP and
                              national security missions.

                              The NCS also provides a means of collaborating with executives from the
                              communications and information technology industries who are part of
                              the President’s National Security Telecommunication Advisory Committee
                              (NSTAC).13 The NSTAC provides industry based advice and expertise to the
                              President on issues and problems related to implementing national security
                              and emergency preparedness. Additionally, through its relationships with
                              other federal departments and agencies and the NSTAC, the NCS serves as
                              another conduit for receiving information about potential terrorist attacks
                              against the nation’s critical infrastructure.

                         Ø Protective Security Division (PSD)
                           PSD is to coordinate strategies for protecting the nation’s critical, physical
                           infrastructure. The PSD works closely with the ICD. The ICD identifies
                           critical infrastructure elements and passes the information to the PSD.
                           The PSD uses this information to conduct risk assessments and determine
                           remediation plans for identified vulnerabilities.


13
  The NSTAC is composed of up to 30 executives representing the major communications and network service providers
and information technology, finance, and aerospace companies, such as Verizon, Bell South, Lockheed Martin, The Boeing
Company, and Electronic Data Systems.


                               Survey of IAIP Directorate - OIG-04-13                                           Page 19
             The PSD receives terrorist threat information and analysis from the RAD
             and other open sources, such as state and local governments. Based on
             this information, the PSD formulates terrorist capability disruption and
             remediation strategies. By implementing disruption strategies, the objective
             of PSD is to upset the ability of terrorists to establish the means for attack.
             By implementing remediation strategies,

                        the objective of the PSD is to deter or disrupt terrorist attacks, or
             minimize their impact if they occur.

             The PSD also has an important advisory and training function. Advisory and
             training services will be delivered to state, local, and private sector partners
             by a network of protective security specialists as well as Protective Security
             Advisors posted throughout the country. Based upon identified critical assets,
             threats, and incidents, the PSD may provide an advisory team to work with
             state and local public safety officials and infrastructure owners and operators
             to make assets within their control more secure. Additionally, the PSD has
             been working with its state, local, and private sector partners to identify and
             list critical infrastructure assets




          Ø National Cyber Security Division (NCSD)
            The mission of the NCSD is to implement the National Strategy to Secure
            Cyberspace which includes identifying, analyzing and reducing cyber
            threats and vulnerabilities; disseminating cyber-threat warning information;
            coordinating incident response; providing technical assistance in continuity of



Page 20                      Survey of IAIP Directorate - OIG-04-13
                  operations and recovery planning; and outreach, awareness, and training. The
                  newly formed NCSD is to be a fusion point of expertise for cyber security.
                  The NCSD also is to use the expertise of various law enforcement, defense,
                  and intelligence agencies to provide multi-layered cyber security protection.
                  Furthermore, the NCSD is to serve as a single point of contact for the public
                  and private sectors for addressing cyber security issues in the United States.
                  The NCSD is to work closely with other IAIP offices and divisions and
                  maintain contacts with other federal, state and local governments, and the
                  private sector to fulfill its mission.

Issues for Inspections/Evaluations
               As we studied IAIP in order to understand its mission and how its offices and
               divisions operate, we identified several issues that could be impeding the ability
               of IAIP to become fully operational. Consequently, these issues may be suitable
               for future inspections.

       Hiring Personnel to Work in a Classified Environment Takes a
       Substantial Amount of Time
               Because of its close interaction with the intelligence and law enforcement
               communities, IAIP handles some of the most sensitive work within DHS. To
               work in this environment, most IAIP personnel require access to information that
               is classified at the Top Secret level or higher. Obtaining the necessary clearance
               can be a time consuming process for new employees. In some cases, it can take
               a year or more before a background investigation can be completed and the new
               employee is deemed suitable for a clearance. Even when the person hired already
               has a security clearance, a full background investigation may still be necessary
               because clearances are not universally accepted by other agencies within the
               intelligence and law enforcement communities. For these reasons, a majority of
               IAIP executives interviewed by the OIG identified hiring personnel who can work
               quickly within a classified environment as one of the major obstacles impeding
               the directorate’s ability to become fully operational.

               The time necessary to obtain a clearance is also an impediment for state, local,
               and private sector personnel. The delay affects both the general distribution of
               threat information and the actual participation of state, local, private sector, and
               contract support personnel on IAIP analytical teams or in the HSOC. A recent
               executive order granted the Secretary authority to set the standard for security



                    Survey of IAIP Directorate - OIG-04-13                                    Page 21
                         clearances going to state, local, and private sector personnel. 14 Despite this
                         authority, many state and local law enforcement personnel are experiencing
                         significant delays in getting clearances to obtain information from federal
                         sources. A future inspection could focus on whether the clearance process for
                         DHS new hires and personnel from state and local governments, the private
                         sector, and contractor support can be shortened without sacrificing security. Such
                         an inspection could examine the feasibility of utilizing state and local police
                         officers to augment the background investigative process. It may also examine
                         the reasons agencies reject other agencies’ decisions granting clearances and why
                         there is no universally accepted clearance process.

            The Ability of IAIP to Exchange Threat Information Electronically
            with Partners is Necessary to Fulfill its Mission
                         One of the keys to the success of DHS is establishing connectivity with both its
                         internal and external partners. Having the capability to send and receive timely,
                         accurate, and reliable information, is necessary if IAIP is to fulfill its mission as
                         the lead intelligence gathering and warning directorate within DHS. In fact, the
                         HSA requires DHS to establish procedures that facilitate the free exchange of
                         threat information among agencies at all levels of government and the private
                         sector. The HSA also requires DHS to report to congressional committees on how
                         well it shares information with its partners.15

                         To establish connectivity among its partners that is compatible, IAIP must have
                         the necessary resources, including:

                         •    personnel with the necessary security clearances and technical experience to
                              operate and maintain information systems;
                         •    facilities to receive and store intelligence data; and
                         •    networks and messaging systems within IAIP that allow for secure electronic
                              communication with internal, other federal, state, local, and private sector
                              partners.

                         IAIP has already begun to identify its top priorities for sharing and processing
                         information.


14
   “Bush Greenlights Ridge on Security Clearances Outside Beltway,” Congressional Quarterly, by Jim McGee, July 30,
2003.
15
   These requirements are found in the Homeland Security Act, Section 892 (b)(1) & (2), and Section 893.


Page 22                                         Survey of IAIP Directorate - OIG-04-13
                                                                                                  A
                         future inspection could identify                            IAIP’s methodology
                         for developing connectivity with its partners and make recommendations for
                         corrective action.

            Maintaining Close Partnerships that Facilitate Unobstructed
            Information Flows is Crucial to the Success of IAIP
                         DHS is now the cabinet-level department responsible for coordinating the
                         protection of American citizens and infrastructure from terrorist attacks. The
                         Secretary charged IAIP with carrying out this responsibility. Therefore, IAIP is
                         accountable for transmitting terrorist threat information to its federal counterparts,
                         as well as to state and local law enforcers -- our nation’s first line of defense
                         against terrorist attacks. IAIP also maintains channels to receive threat-related
                         information. Information IAIP receives may originate from federal, state, local,
                         private sector or any other sources. Since IAIP is an intelligence gatherer rather
                         than an intelligence collector, its success is largely dependent on its federal, state
                         and local, and private sector partnerships.

                         The acting Assistant Secretary for IA expressed his satisfaction with the manner
                         in which information flows both vertically (i.e., between IAIP and its state,
                         local, and private sector partners), and horizontally (i.e., between IAIP and its
                         federal partners such as the CIA, FBI, and other members of the intelligence
                         community). However, in a recent congressional hearing,16 a member of the
                         House Select Committee on Homeland Security stated, “It is nearly two years
                         since the attacks of September 11th, and information sharing on the terrorist threat
                         to America is still dangerously disconnected between different agencies of the
                         federal government and between the federal government and state and local law
                         enforcement officials.”

                         A future inspection could document the impact of security clearance issues on
                         information sharing, particularly at the state, local, and private sector levels and
                         connectivity and electronic data sharing issues among IAIP’s federal partners. In
                         addition, the study should chronicle the existence of conflicting or duplicative
                         information channels within IAIP or among its state, local, and private sector
                         or federal partners and how such alternative channels might be integrated. This


16
  Subcommittee on Intelligence and Counter-Terrorism to the House Select Committee on Homeland Security, “ Improving
the Department of Homeland Security’s Information Sharing Capabilities,” July 24, 2003.



                              Survey of IAIP Directorate - OIG-04-13                                         Page 23
                         review could complement a planned, internal IAIP study that will be conducted
                         jointly with the Border and Transportation directorate.17

            The Extent of IAIP’s Involvement With the Homeland Security
            Advisory System is Not Clear
                         The purpose of HSAS is to provide a comprehensive and effective means
                         to disseminate information regarding the risk of terrorist attacks to federal,
                         state, and local authorities and to the American people. This advisory system
                         characterizes appropriate levels of vigilance, preparedness, and readiness in a
                         series of graduated threat conditions. As previously mentioned, the Secretary, in
                         consultation with the HSC, determines the threat condition. IAIP supports the
                         management of the HSAS by providing analysis of threat information in support
                         of decisions to raise or lower the national threat level and for coordinating the
                         actual notification of a threat condition change.

                         Although IAIP participates in analyzing threat information in support of the
                         HSAS, it is not clear what information is specific enough to act upon. The
                         intelligence requirements for the different threat conditions are unclear. Also,
                         as noted previously in the RAD discussion, not all threat information that could
                         affect the threat condition is vetted through IAIP.

                         Therefore, the OIG could initiate an inspection of how IAIP interacts with the
                         Secretary and others involved in making the decision to elevate or lower the threat
                         condition. Also, such an inspection could evaluate the adequacy and timeliness of
                         information used for authorizing changes in the threat level.

            IAIP Needs to Develop a Prioritized List of Critical Infrastructure and
            Assets
                         Identifying critical infrastructure is a critical step in implementing a national
                         infrastructure protection plan. Once identified and validated, these critical
                         infrastructure and key assets are catalogued into a prioritized national list that
                         assigns the appropriate security level based on a comprehensive risk analysis of
                         all assets identified on the list. It is expected that this national prioritized list will
                         serve as a baseline for making decisions on which critical infrastructure and key
                         assets to safeguard first. In line with this expectation, Congress has requested that

17
  July 31, 2003 memorandum from IAIP Under Secretary and the Border and Transportation Security Under Secretary,
“Invitation to Participate in Joint Studies.”


Page 24                                        Survey of IAIP Directorate - OIG-04-13
IAIP provide a detailed program plan outlining a proposed scope, total estimated
costs, and schedule for completing a comprehensive risk analysis and assessment
of vulnerabilities of the critical infrastructure by December 15, 2003.

The Protective Security Division (PSD) is responsible for maintaining a
prioritized national list of critical infrastructure and key assets. Through
interviews, the OIG has learned that PSD has solicited data from state and local
partners on certain critical infrastructure and key assets.




    Survey of IAIP Directorate - OIG-04-13                                 Page 25
Appendix A
Summary of IAIP Statutory Functions


                        Summary of IAIP Statutory Functions
            No.                        Statutory Function
             1    Vulnerability Assessment                                            IP
             2    National Plan to Secure Infrastructure                              IP
             3    “Map” Threats against vulnerabilities                               IP
             4    Recommend Infrastructure Protective Measures                       IA/IP
                  Ensure timely and efficient access to DHS of all homeland
             5                                                                        IA
                  security information
             6    Administer the Homeland Security Advisory System                    IA
                  Make recommendations for homeland security information
             7                                                                        IA
                  sharing policies
                  Disseminate information analyzed by DHS to other federal,
             8                                                                        IA
                  state, and local government entities and the private sector
                  Consult with appropriate federal Intelligence Community and
             9    law enforcement officials to establish collection priorities and    IA
                  strategies and represent DHS in all “requirements” processes.
                  Consult with state and local governments and the private sector
            10    to ensure appropriate exchanges of terrorist threat-related         IA
                  information
                  Ensure that information received is protected from
             11   unauthorized disclosure and used only for the performance of       IA/IP
                  official duties
                  Request additional information from other federal, state, local
            12                                                                       IA/IP
                  government agencies and the private sector
            13    Establish and use secure information technology infrastructure     IA/IP
                  Ensure that information systems/databases are compatible with
            14    one another and other federal agencies and treat information in    IA/IP
                  accordance with applicable Federal privacy law
                  Coordinate training and other support to DHS and other
            15                                                                       IA/IP
                  agencies to identify and share information
                  Coordinate with IC elements and federal, state, and local law
            16                                                                        IA
                  enforcement agencies “as appropriate”
                  Provide intelligence analysis and other support to the rest of
            17                                                                        IA
                  DHS
            18    Perform such other duties as the Secretary may provide             IA/IP
            19    Identify, Detect, and Assess Terrorist Threats to Homeland          IA




Page 26                                 Survey of IAIP Directorate - OIG-04-13
                                                                                                       Appendix B
                                                  Lead Agencies and Critical Infrastructure Sectors and Key Assets

                                                                              Critical Infrastructure
                                            Lead Agency
                                                                                     Sectors 18
                         1      Department of Homeland Security                Emergency Services
                                                                                  Information and
                         2      Department of Homeland Security
                                                                                Telecommunications
                         3      Department of Homeland Security                     Transportation
                         4      Department of Homeland Security                  Postal and Shipping
                                Department of Homeland Security
                         5                                                           Government
                                  All departments and agencies
                         6         Department of Agriculture                          Agriculture
                                   Department of Agriculture
                         7       Department of Health & Human                             Food
                                           Services
                         8      Environmental Protection Agency                          Water
                                 Department of Health & Human
                         9                                                           Public Health
                                           Services
                        10           Department of Defense                     Defense Industry Base
                        11             Department of Energy                              Energy
                        12          Department of the Treasury                  Banking and Finance
                                                                                Chemical Industry &
                        13      Environmental Protection Agency
                                                                                Hazardous Materials


                                                               Key Assets
                         1                                Commercial Assets
                         2                               Government Facilities
                         3                                         Dams
                         4                               Nuclear Power Plants
                         5                               National Monuments


18
     Source: National Strategy for the Physical Protection of Critical Infrastructures dated February 2003.




                                   Survey of IAIP Directorate - OIG-04-13                                     Page 27
Appendix C
IAIP Response to OIG




Page 28                Survey of IAIP Directorate - OIG-04-13
                                                                  Appendix D
                                              Major Contributors to this Report

Bradley J. Harp, Program Analyst, Department of Homeland Security, Office of
Inspections, Evaluations, and Special Reviews

Carlton I. Mann, Program Analyst, Department of Homeland Security, Office of
Inspections, Evaluations, and Special Reviews

Frank A. Parrott, Program Analyst, Department of Homeland Security, Office of
Inspections, Evaluations, and Special Reviews




    Survey of IAIP Directorate - OIG-04-13                              Page 29
Appendix E
Report Distribution

                      Department of Homeland Security


                      Under Secretary, Information Analysis and Infrastructure Protection Directorate,
                      Department of Homeland Security




Page 30                                  Survey of IAIP Directorate - OIG-04-13
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG),
Office of Inspections, Evaluations, and Special Reviews at (202) 254-4205 or 4208, or
fax your request to (202) 254-4304.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603 or write to Department of Homeland Security, Washington,
DC 20528, Attn: Office of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
